U.S. Department of                                              Office of Inspector General
Transportation                                                  Washington, D.C. 20590
Office of the Secretary
of Transportation

July 20, 2005

The Honorable Mark V. Rosenker
Acting Chairman
National Transportation Safety Board
490 L’Enfant Plaza, SW
Washington, DC 20594

Dear Acting Chairman Rosenker:

The Office of Inspector General plans to perform an audit of the National
Transportation Safety Board’s (NTSB) Information Security Program, as required
by the Federal Information Security Management Act of 2002 (FISMA). NTSB
and other small agencies have become subject to annual FISMA reporting
requirements since FY 2004.

Last year, we reported NTSB’s information security program as a material internal
control weakness. NTSB management has agreed to take corrective actions.
However, most of the planned actions have not yet been implemented.
Accordingly, we will only perform a limited review to compile this year’s
independent report. In addition to answering OMB questions on FISMA progress,
we will evaluate whether NTSB (1) network connections to outside entities,
including the Internet, are adequately protected to prevent cyber attacks; and
(2) internal network computers are properly configured to reduce the risks of
unauthorized access.

We will coordinate the audit with the offices of the Chief Information Officer and
Chief Financial Officer. We plan to start this project immediately. The project
manager for the audit is Dr. Ping Sun. If you have any questions, please call
Rebecca Leng, Deputy Assistant Inspector General for Information Technology
and Computer Security, at (202) 366-1488, or Ed Densmore, Program Director, at
(202) 366-4350.

Sincerely,




Theodore P. Alves
Principal Assistant Inspector General
 for Auditing and Evaluation
